1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004

Paul D. Clement
To Call Writer Directly:
(202) 389-5000
paul.clement@kirkland.com

(202) 389-5000

Facsimile:
(202) 389-5200

www.kirkland.com

March 27, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re: Just Energy Marketing Corp., et al. v. Hurt, et al., No. 20-1093
Dear Mr. Harris:
I write to inform the Court that, on March 9, 2021, petitioner Just Energy
Group Inc. filed a voluntary petition under Chapter 15 of the Bankruptcy Code in
the United States Bankruptcy Court for the Southern District of Texas on behalf of
itself and certain affiliates, including the other petitioners here. That same day, the
bankruptcy court entered an “Order Granting Provisional Relief Pursuant to Section
1519 of the Bankruptcy Code,” which provides in relevant part that the automatic
stay of Section 362 of the Bankruptcy Code “shall apply” to “any judicial … action or
proceeding involving or against the Debtors” within the United States, “except as
authorized by Debtors in writing and in their sole discretion.” Ex. 1, at ¶2(b)(i).
Pursuant to the bankruptcy court’s order, petitioners hereby inform this Court
that, in light of the clear circuit split created by the incorrect decision below on an
issue of exceptional importance, (a) they will proceed with the above-captioned case
in this Court, (b) they hereby waive the automatic stay in all respects to these
proceedings, and (3) this letter shall constitute the written authorization and notice
required by the bankruptcy court’s order (and all parties may rely on this letter as
proof that the stay has been lifted for this matter).
Sincerely,

Paul D. Clement
Counsel for Petitioners
cc: Counsel of Record

Beijing

Boston

Chicago

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

San Francisco

Shanghai

Exhibit 1

Case
FiledinonTXSB
03/09/21
in TXSB Page
Page11of
of180
180
Case21-30823
21-30823 Document
Document16-1
23 Filed
on 03/09/21

IN THE UNITED STATES BANKRUPTCY COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
In re:
JUST ENERGY GROUP INC., et al
Debtors in a Foreign Proceeding,1

)
)
)
)
)
)
)
)

ENTERED
03/09/2021

Chapter 15
Case No. 21- 0,

(Joint Administration Requested)
Re Docket No.

ORDER GRANTING PROVISIONAL RELIEF
PURSUANT TO SECTION 1519 OF THE BANKRUPTCY CODE
Upon the motion (the “Motion”)2 filed by the foreign representative (the “Foreign
Representative”) of the above-captioned debtors (collectively, the “Debtors” or “Just Energy”),
seeking provisional relief under the Bankruptcy Code to protect the Debtors and their property
within the territorial jurisdiction of the United States pending recognition of the Debtors’ voluntary
arrangement proceedings commenced under the Companies’ Creditors Arrangement Act,
R.S.C. 1985, c. C-36 (as amended, the “CCAA”) in the Superior Court of Ontario (the “Canadian
Proceedings” and such court, the “Canadian Court”); the Court having jurisdiction to consider the
Motion and the relief requested therein pursuant to 28 U.S.C. and §1334; and the relief requested
in the Motion being a core proceeding pursuant to 28 U.S.C. § 157(b); and that this Court may
enter a final order consistent with Article III of the United States Constitution; venue being proper

1

The identifying four digits of Debtor Just Energy Group Inc.’s local Canada tax identification number are 0469.
Due to the large number of debtor entities in these chapter 15 cases, for which the Debtors have requested joint
administration, a complete list of the debtor entities and the last four digits of their federal tax identification
numbers are not provided herein. A complete list of such information may be obtained on the website of the
Debtors’ claims and noticing agent at www.omniagentsolutions.com/justenergy. The location of the Debtors’
service address for purposes of these chapter 15 cases is: 100 King Street West, Suite 2360, Toronto, ON, M5X
1E1.

2

Capitalized terms used but not otherwise defined herein shall have the meanings ascribed to them in the Motion
or the CCAA Order (as defined herein), as applicable.

Case
FiledinonTXSB
03/09/21
in TXSB Page
Page22of
of180
180
Case21-30823
21-30823 Document
Document16-1
23 Filed
on 03/09/21

before the Court pursuant to 28 U.S.C. § 1410; adequate and sufficient notice of the filing of the
Motion having been given by the Foreign Representative; it appearing that the relief requested in
the Motion is necessary and beneficial to the Debtors; and no objections or other responses having
been filed that have not been overruled, withdrawn, or otherwise resolved; and after due
deliberation and sufficient cause appearing therefor, it is hereby FOUND that:
A.

The findings and conclusions set forth herein constitute this Court’s findings of fact

and conclusions of law pursuant to rule 7052 of the Federal Rules of Bankruptcy Procedure
(the “Bankruptcy Rules”), made applicable to this proceeding pursuant to Bankruptcy Rule 9014.
To the extent any of the following findings of fact constitute conclusions of law, they are adopted
as such. To the extent any of the following conclusions of law constitute findings of fact, they are
adopted as such.
B.

There is a substantial likelihood that the Foreign Representative will successfully

demonstrate that the Canadian Proceedings constitute “foreign main proceedings” as defined in
section 1502(4) of the Bankruptcy Code.
C.

As evidenced by the CCAA Order, the Canadian Court has determined that the

commencement or continuation of any action or proceeding in Canada against the Debtors or their
assets should be enjoined pursuant to applicable Canadian law to permit the expeditious and
economical administration of the Canadian Proceedings, and such relief will either (a) not cause
an undue hardship to any creditors or other parties-in-interest or (b) any hardship to such creditors
or parties is outweighed by the benefits of the relief requested. This Court similarly determines
that, consistent with the CCAA Order, the commencement or continuation of any action or
proceeding in the United States against the Debtors or their assets should be enjoined pursuant to
sections 105 and 1519(a) of the Bankruptcy Code to permit the expeditious and economical

2

Case
FiledinonTXSB
03/09/21
in TXSB Page
Page33of
of180
180
Case21-30823
21-30823 Document
Document16-1
23 Filed
on 03/09/21

administration of the Canadian Proceedings, and such relief will either (a) not cause an undue
hardship to any creditors or other parties-in-interest or (b) any hardship to such creditors or parties
is outweighed by the benefits of the relief requested.
D.

Unless a preliminary injunction is issued, and unless the Debtors are immediately

authorized to comply with the CCAA Order, and unless all creditors, persons, parties in interest,
contract parties, lenders and governmental units and agencies located within the territorial United
States (collectively, the “U.S. Chapter 15 Parties”) are bound by the terms of the CCAA Order
pending the upcoming recognition hearing to be held by this Court, there is a material risk that the
U.S. Chapter 15 Parties may take certain actions against the Debtors, including exercising certain
remedies under existing debt obligations, existing executory contracts, or unexpired leases or
under applicable law. Such actions could (a) interfere with the jurisdictional mandate of this Court
under chapter 15 of the Bankruptcy Code, (b) interfere with and cause harm to the Debtors’ efforts
to administer and implement the Canadian Proceedings, (c) interfere with the Debtors’ operations,
and (d) undermine the Debtors’ efforts to achieve an equitable result for the benefit of all of the
Debtors’ stakeholders. Accordingly, there is a material risk that the Debtors may suffer immediate
and irreparable injury (with no adequate remedy at law), and it is therefore necessary that the Court
grant the relief set forth in this order (the “Order”).
E.

The Foreign Representative has demonstrated to the Canadian Court that the

incurrence of indebtedness under the DIP Facility and the granting of liens and charge negotiated
in connection with the DIP Facility is necessary to prevent irreparable harm to the Debtors because,
without such financing, the Debtors will be unable to continue operations and fund their
restructuring proceedings, which will significantly impair the value of their assets, and the
Canadian Court has approved the DIP Facility as being appropriate and the amount that the Debtors

3

Case
FiledinonTXSB
03/09/21
in TXSB Page
Page44of
of180
180
Case21-30823
21-30823 Document
Document16-1
23 Filed
on 03/09/21

have been authorized to borrow is reasonably necessary for the continued operations of the Debtors
in the ordinary course of business.
F.

The Foreign Representative has demonstrated to the Canadian Court that the terms

of the DIP Facility are fair and reasonable and were entered into in good faith by the Debtors and
the DIP Lenders and that the DIP Lenders would not have extended financing without the
provisions of this Order and the Court’s recognition of the protections set forth in the CCAA Order
relating to the DIP Facility.
G.

The interest of the public (including the Debtors U.S. based customers) will best be

served by this Court’s entry of this Order.
H.

The Foreign Representative and the Debtors are entitled to the full protections and

rights available pursuant to section 1519(a)(1),(2), and (3) of the Bankruptcy Code because such
relief is urgently needed to avoid transfer or infringement of and to protect the assets of the
Debtors, particularly including the Debtors’ retail electricity contracts and customers located in
the territorial United States, and the interests of their creditors until this Court rules on the petition.
BASED ON THE FOREGOING FINDINGS OF FACT AND AFTER DUE
DELIBERATION AND SUFFICIENT CAUSE APPEARING THEREFORE, IT IS
HEREBY ORDERED THAT:
1.

Pending entry of the Recognition Order and notwithstanding anything to the

contrary contained in this Order, the Foreign Representative and the Debtors, as applicable, are
authorized to comply with the terms, conditions, and provisions of the CCAA Order including,
without limitation, the sections of the CCAA Order (a) authorizing the Debtors to obtain credit
under the DIP Facility in the amount of up to USD $125 million and granting to the DIP Lenders
the DIP Lenders’ Charge to authorize the Debtors to enter into, perform and borrow under the DIP
Facility, (b) staying the commencement or continuation of any actions against the Debtors and
their assets, (c) imposing a stay with respect to claims or actions against the Debtors’ directors and
4

Case
FiledinonTXSB
03/09/21
in TXSB Page
Page55of
of180
180
Case21-30823
21-30823 Document
Document16-1
23 Filed
on 03/09/21

officers or their assets in connection with the directors’ or officers’ positions at the Debtor, and (d)
granting the Directors’ Charge and Administration Charge. In addition, from entry of this Order
until the conclusion of the hearing to consider recognition of the Canadian Proceedings, every U.S.
Chapter 15 Party shall be bound by the CCAA Order, subject solely to further order of this Court
or the Canadian Court upon prior written notice to the Debtors and the Foreign Representative.
2.

Beginning on the date of this Order and continuing until the conclusion of the

recognition hearing to be held by this Court (unless otherwise extended pursuant to section 1519(b)
of the Bankruptcy Code):
a.

the Foreign Representative is recognized as, and shall be the representative
of, the Debtors with full authority to administer the Debtors’ assets and
affairs in the United States and may operate the Debtors’ business and
exercise the rights and powers of a trustee unless otherwise specified in the
CCAA Order.

b.

Section 362 of the Bankruptcy Code shall apply with respect to the Debtors
and the Debtors’ property that is within the territorial jurisdiction of the
United States. For the avoidance of doubt and without limiting the
generality of the foregoing, this Order shall impose a stay within the
territorial jurisdiction of the United States of:
i.

the commencement or continuation, including the issuance or
employment of process of, any judicial, administrative or any other
action or proceeding involving or against the Debtors or their assets
or proceeds thereof, or to recover a claim or enforce any judicial,
quasi-judicial, regulatory, administrative or other judgment,
assessment, order, lien or arbitration award against the Debtors or
their assets or proceeds thereof, or to transfer, assign, or exercise any
control over the Debtors’ assets located in the United States,
particularly including the Debtors’ retail electricity contracts and
customers located in the territorial United States, except as
authorized by the Debtors in writing and in their sole discretion;

ii.

except as permitted in the CCAA Order, the creation, perfection,
seizure, attachment, enforcement, or execution of liens or judgments
against the Debtors’ property in the United States or from
transferring, encumbering, or otherwise disposing of or interfering
with the Debtors’ assets or agreements in the United States without
the express written consent of the Foreign Representative, after

5

Case
FiledinonTXSB
03/09/21
in TXSB Page
Page66of
of180
180
Case21-30823
21-30823 Document
Document16-1
23 Filed
on 03/09/21

notice and hearing in conformance with this Court’s procedures and
rules;
iii.

any act to collect, assess, or recover a claim against the Debtors that
arose before the commencement of the Debtors’ chapter 15 case;
and

iv.

the setoff of any debt owing to the Debtors that arose before the
commencement of the Debtors’ chapter 15 case against any claim of
the Debtor.

In the event of any conflict between the scope of the stays and/or injunctions set forth in
the CCAA Order and those contained in this Order, the language of the CCAA Order shall prevail,
subject to further order of this Court.
c.

section 365(e) of the Bankruptcy Code shall apply with respect to the
Debtors’ executory contracts and unexpired leases such that,
notwithstanding any provision in any such contract or lease or under
applicable law, no executory contract or unexpired lease with any of the
Debtors may be terminated, cancelled, or modified (and any rights or
obligations in such leases or contracts cannot be terminated or modified)
solely because of a provision in any contract or lease of the kind described
in sections 365(e)(1)(A), (B), or (C) of the Bankruptcy Code, and all
contract and lease counterparties located within the United States shall be
prohibited from taking any steps to terminate, modify, or cancel any
contracts or leases with the Debtors arising from or relating in any way to
any so-called “ipso facto” or similar clauses; provided that this Order does
not impair or affect the rights of any person under sections 559 through 561
of the Bankruptcy Code, subject to the terms of the CCAA Order.

d.

the Foreign Representative shall have the rights and protections to which
the Foreign Representative is entitled under chapter 15 of the Bankruptcy
Code, including, but not limited to, the protections limiting the jurisdiction
of United States Courts over the Foreign Representative in accordance with
section 1510 of the Bankruptcy Code and the granting of additional relief
in accordance with sections 1519(a) and 1521 of the Bankruptcy Code.

e.

until the conclusion of the recognition hearing to be held by this Court, no
U.S. Chapter 15 Party may file an involuntary petition or similar relief
against one or all of the Debtors under chapter 7 or chapter 11 of the
Bankruptcy Code.

f.

notwithstanding any provision in the Bankruptcy Rules to the contrary,
(i) this Order shall be effective immediately and enforceable upon entry,
(ii) the Foreign Representative and the DIP Lenders are not subject to any

6

Case
FiledinonTXSB
03/09/21
in TXSB Page
Page77of
of180
180
Case21-30823
21-30823 Document
Document16-1
23 Filed
on 03/09/21

stay in the implementation, enforcement, or realization of the relief granted
in this Order, and (iii) the Foreign Representative is authorized and
empowered, and may, in his discretion and without further delay, take any
action and perform any act necessary to implement and effectuate the terms
of this Order.

3.

g.

effective upon entry of this Order, section 525 of the Bankruptcy Code shall
be in full force and effect in these chapter 15 cases and with respect to each
of the Debtors, and this Court shall retain exclusive jurisdiction to hear any
purported violations thereof, which requests may be brought by way of an
expedited emergency motion.

h.

any and all landlords or other parties with a lease of premises to the Debtors
located within the United States are hereby prohibited from: taking any
steps to cancel, terminate, or modify any lease for any reason, including
non-payment of rent and/or due to any ipso facto clause described by section
365(e)(1) of the Bankruptcy Code; enforcing any “landlord lien”,
possessory lien or similar lien against any property of the Debtor; changing
the locks or codes on any of the Debtors’ premises; or commencing or
continuing any eviction or similar proceedings.

Pending entry of the Recognition Order, the Foreign Representative and the

Debtors are entitled to the benefits of, and may comply with, the terms and conditions of the
DIP Financing, including but not limited to, the payment of associated fees and expenses as they
come due without further notice or order of this Court. The CCAA Order provides, “that the DIP
Agent and the DIP Lenders shall be entitled to the benefit of and are hereby granted a charge (the
“DIP Lenders’ Charge”) on the Property,3 which DIP Lenders’ Charge shall not secure an
obligation that exists before this Order is made” and “that the filing, registration or perfection of .
. . the DIP Lenders’ Charge . . . shall not be required, and that the Charges shall be valid and
enforceable for all purposes, including as against any right, title or interest filed, registered,
recorded or perfected subsequent to the Charges coming into existence, notwithstanding any such
failure to file, register, record or perfect.” See CCAA Order, ¶¶ 38, 44. To the extent authorized

3

“Property” means Just Energy’s current and future assets, licenses, undertakings and properties of every nature
and kind whatsoever, and wherever situate including all proceeds thereof. See CCAA Order, ¶ 4.

7

Case
FiledinonTXSB
03/09/21
in TXSB Page
Page88of
of180
180
Case21-30823
21-30823 Document
Document16-1
23 Filed
on 03/09/21

under the CCAA Order, the Court recognizes, on a provisional basis, the DIP Lenders’ Charge, as
defined in the CCAA Order, granted in the CCAA Order which applies to all of the Debtors’ assets
located in the United States, subject to the priorities, terms, and conditions of the CCAA Order, to
secure current and future amounts outstanding under the DIP Facility.
4.

To the extent provided in the CCAA Order, and based on the finding therein and to

promote cooperation between jurisdictions in cross-border insolvencies, the Debtors are hereby
authorized to execute and deliver such term sheets, credit agreements, mortgages, charges,
hypothecs and security documents, guarantees, and other definitive documents as are contemplated
by the DIP Facility (collectively, the “DIP Documents”) or as may be reasonably required by the
DIP Lenders pursuant to the terms thereof, and the Debtors are hereby authorized to pay and
perform all of its indebtedness, interest, fees, liabilities, and obligations to the DIP Lenders under
and pursuant to the DIP Facility without any need for further approval from this Court.
5.

This Order shall be sufficient and conclusive notice and evidence of the grant,

validity, perfection, and priority of the liens granted to the DIP Lenders in the CCAA Order without
the necessity of filing or recording this Order or any financing statement, mortgage, or other
instrument or document which may otherwise be required under the law of any jurisdiction;
provided that the Debtors are authorized to execute, and the administrative agent under the
DIP Facility may file or record, any financing statements, mortgages, other instruments or any
other DIP Document to further evidence the liens authorized, granted, and perfected hereby and
by the CCAA Order.
6.

The validity of the indebtedness, and the priority of the liens authorized by the

CCAA Order and made enforceable in the United States by this Order shall not be affected by any
reversal or modification of this Order, on appeal or the entry of an order denying recognition of

8

Case
FiledinonTXSB
03/09/21
in TXSB Page
Page99of
of180
180
Case21-30823
21-30823 Document
Document16-1
23 Filed
on 03/09/21

the Canadian Proceedings pursuant to the terms of the CCAA Order and sections 105, 1517, and
1519 of the Bankruptcy Code.
7.

No action, inaction, or acquiescence by the DIP Lenders, including, without

limitation, funding the Debtors’ ongoing operations under this Order, shall be deemed to be or
shall be considered as evidence of any alleged consent by the DIP Lenders to a charge against the
collateral pursuant to sections 506(c), 552(b), or 105(a) of the Bankruptcy Code. The DIP Lenders
shall not be subject in any way whatsoever to the equitable doctrine of “marshaling” or any similar
doctrine with respect to the collateral.
8.

Effective on a provisional basis upon entry of this Order, to the extent precluded by

or provided for under the CCAA Order, no person or entity shall be entitled, directly or indirectly,
whether by operation of sections 506(c), 552(b), or 105 of the Bankruptcy Code or otherwise, to
direct the exercise of remedies or seek (whether by order of this Court or otherwise) to marshal or
otherwise control the disposition of any collateral or property after a breach under the DIP Facility,
the DIP Documents, the CCAA Order, or this Order.
9.

In accordance with the CCAA Order, the Foreign Representative and the Debtors,

as applicable, are authorized to pay or remit (a) any taxes (including, without limitation, sales, use,
withholding, unemployment, and excise) the nonpayment of which by any Just Energy entity could
result in a responsible person associated with a Just Energy entity being held personally liable for
such nonpayment and (b) taxes related to income or operations incurred or collected by a
Just Energy entity in the ordinary course of business.
10.

Pursuant to Bankruptcy Rule 7065, the security provisions of Rule 65(c) of the

Federal Rules of Civil Procedure are waived.

9

Case
FiledinonTXSB
03/09/21
in TXSB Page
Page10
10of
of180
180
Case21-30823
21-30823 Document
Document16-1
23 Filed
on 03/09/21

11.

Notice of this Order will be provided to: (a) the Office of the United States Trustee;

(b) the United States Attorney’s Office for the Southern District of Texas; (c) administrative agent
to the prepetition credit agreement and counsel thereto; (d) the Provisional Relief Parties; (e) all
persons or bodies authorized to administer the Canadian Proceedings; and (f) any other parties of
which the Foreign Representative becomes aware that are required to receive notice pursuant to
Bankruptcy Rule 2002(q); and (g) such other entities as this Court may direct (collectively, the
“Notice Parties”), which satisfies the requirements of Bankruptcy Rule 2002(q). In light of the
nature of the relief requested, no other or further notice is required.
12.

Service in accordance with this Order shall be deemed good and sufficient service

and adequate notice for all purposes. The Foreign Representative, the Debtors, and their respective
agents are authorized to serve or provide any notices required under the Local Rules.
13.

The banks and financial institutions with which the Debtors maintain bank accounts

or on which checks are drawn or electronic payment requests made in payment of prepetition or
postpetition obligations are authorized and directed to continue to service and administer the
Debtors’ bank accounts without interruption and in the ordinary course and to receive, process,
honor and pay any and all such checks, drafts, wires and automatic clearing house transfers issued,
whether before or after the Petition Date and drawn on the Debtors’ bank accounts by respective
holders and makers thereof and at the direction of the Foreign Representative or the Debtor, as the
case may be.
14.

The Foreign Representative is authorized to take all actions necessary to effectuate

the relief granted pursuant to this Order.

10

Case
FiledinonTXSB
03/09/21
in TXSB Page
Page11
11of
of180
180
Case21-30823
21-30823 Document
Document16-1
23 Filed
on 03/09/21

15.

This Court shall communicate directly with, or request information or assistance

directly from, the Canadian Court or the Foreign Representative, subject to the rights of a party in
interest to notice and participation.
16.

This Court shall retain jurisdiction with respect to the enforcement, amendment or

modification of this Order, any requests for additional relief or any adversary proceeding or
contested matter brought in and through the chapter 15 case, and any request by an entity for relief
from the provisions of this Order, for cause shown, that is properly commenced and within the
jurisdiction of this Court.
Houston,
March
09,17,
2021
 Texas
October
2018
Dated: ______________, 2021



UNITED
STATES BANKRUPTCY JUDGE


 
      



Additionally, the Court finds that any payments made to ERCOT are made subject to all of the
Debtors' rights to contest those payments, and all rights to receive a refund or credit as allowed by
applicable law. Although the Court recognizes the authority to make payments to ERCOT as
granted by the Canadian Order, this Court neither adds nor subtracts from any such authorization.
Finally, it is further ordered that the Court applies § 525 of the Bankruptcy Code to this recognition
order. Pending entry of an order by this Court to the contrary, the United States Bankruptcy Court
for the Southern District of Texas reserves exclusive subject matter jurisdiction for any relief sought
under § 525. This provision is made to assure that this recognition order fully complies with US
public policy. This paragraph is entered with full respect and comity to the difficult work being done
by the Court's Canadian counterpart, and with this Court's thanks.

11

